This report presents the conclusions of the OIG and the findings and recommendations
presented in this report do not necessarily represent CPB’s final position on these
matters. CPB management is responsible for determining the corrective actions to be
taken, in accordance with CPB audit resolution procedures.

Based on CCC’s response to the draft report, we consider recommendation 1 resolved
but open pending CPB’s management decision and collection of overpayments. Based
on CCC’s response recommendations 2-5 are unresolved, pending CPB management’s
decision on the recommendations.

                                   BACKGROUND

WYCC broadcasts television programming 24 hours a day and features a mix of
instructional, informational and educational programs. Primary funding for WYCC is
provided by City Colleges of Chicago, grants from the Corporation for Public
Broadcasting, and the State of Illinois. WYCC also receives viewer, foundation and
corporate support through donations, matching gifts and underwriting. WYCC employs
an ethnically and culturally diverse staff of 40 professionals, speaking over 12 different
languages, with extensive backgrounds in broadcast management, production and
engineering.

CSG award amounts are determined by the NFFS reported by a station on its AFR.
The CSG calculation process starts with amounts appropriated for the television CSG
pool adjusted by the base grant, as well as distance and local grant amounts. The
funds that remain are called the incentive grant pool. The Incentive Rate of Return
(IRR) is calculated by dividing the incentive grant pool by the total amount of NFFS
claimed by all television stations in the system. The IRR is then multiplied by the
station’s reported NFFS to calculate the incentive award amount of the station’s total
CSG. There is a two year lag between the reported NFFS and CPB’s calculation of the
fiscal year’s CSG award amount. CPB used the NFFS claimed on WYCC’s FY 2010
AFR to determine the amount of its FY 2012 CSG award to WYCC.

During FYs 2010 and 2011 WYCC received CPB grants totaling $2,000,791
($1,895,052 in CSG grants, $37,059 in Interconnection grants, and $68,680 In Fiscal
Stabilization grants) per Exhibit A. WYCC recognizes revenues when funds are spent
and are reported on its AFR based on CCC’s fiscal year, which covers the period July
1st to June 30th of each year. WYCC’s AFRs reported total revenues of $16,531,773
(total revenues and indirect administrative support) and CPB revenues of $2,140,625,
per Exhibit B. WYCC reported total NFFS of $14,284,093 ($8,743,443 in FY 2010 and
$5,540,650 in FY 2011), as presented in Exhibit C.

CSG grant funds can be spent over a two-year period. The FY 2010 grant can be spent
over the two-year period from October 1, 2009 through September 30, 2011 and the FY
2011 grant from October 1, 2010 through September 30, 2012.




                                             2
                                 RESULTS OF REVIEW

We examined WYCC’s management’s assertions of compliance with CPB’s CSG grant
agreement terms, Certification of Eligibility requirements, Act requirements, and NFFS
financial reporting guidelines for the periods ending June 30, 2010 - 2011.
Management is responsible for compliance with those requirements. Our responsibility
is to express an opinion on management’s assertions about its compliance based on
our examination.

Our examination was conducted in accordance with the Government Auditing
Standards for attestation engagements and included examining, on a test basis,
evidence about WYCC’s compliance with those requirements and performing such
other procedures as we considered necessary in the circumstances. We believe that
our examination provides a reasonable basis for our opinion. Our examination does not
provide a legal determination on WYCC’s compliance with specified requirements.

Our examination disclosed the following material noncompliance issues with CPB’s
CSG grant agreement terms, Certification of Eligibility requirements, and NFFS financial
reporting guidelines applicable to the periods ending June 30, 2010 and 2011.

Our examination found that WYCC:

       over-stated NFFS by $2,382,835 ($1,271,917 in FY 2010 and $1,110,918 in FY
        2011) for indirect support, which resulted in estimated CSG overpayments of
        $273,692 ($146,092 in FY 2012 and $127,600 for FY 2013); and
       did not make quarterly on-air announcements explaining the station’s open
        meeting policy or establish a written policy on Donor List and Political Activities
        requirements of the Communications Act.

In our opinion, because of the effect of the noncompliance described above, WYCC has
not fully complied with the aforementioned requirements for the periods ending June 30,
2010 and 2011.

                      FINDINGS AND RECOMMENDATIONS

Over-Stated NFFS for Indirect Administrative Support

Our review of NFFS reported on Schedule B of the AFRs found that CCC claimed
indirect costs for both institutional support and physical plant support using the
Schedule B Worksheet. However, in calculating both institutional and physical plant
support, accounting officials did not adjust either calculation for the costs groups that did
not benefit the operations of the station. As a result, NFFS was over-stated by
$2,382,835 ($1,271,917 in FY 2010 and $1,110,918 for FY 2011) as shown on Exhibit
H, resulting in estimated CSG overpayments of $273,692.1
1
 Overpayment was calculated using FY 2010 NFFS times FY 2012 IRR of 11.4869 percent. FY 2013
overpayment was estimated using FY 2011 NFFS times FY 2012 IRR, pending approval of final FY 2013
IRR.
                                                3
CCC reported institutional support of $65,611,914 in FY2010 and $65,531,438 in FY
2011. However, CCC should have reported $37,711,525 in FY2010 and $27,978,313 in
FY 2011 for institutional support based on CCC’s response to the draft report
eliminating the costs groups that did not benefit the operations of the station, as shown
on Exhibits D and E. Similarly, CCC reported physical plant support of $28,977,237 in
FY2010 and $21,805,364 in FY 2011. However, CCC should have reported $2,615,761
in FY2010 and $3,147,415 in FY 2011, for physical plant support based on adjustments
identified in CCC’s response to the draft report eliminating the costs groups that did not
benefit the station, as shown on Exhibits F and G. Additionally, CCC’s response to the
draft report claimed occupancy value of $519,991 ($258,459 for FY 2010 and $261,532
for FY 2011) not previously claimed on its FYs 2010 and 2011 AFRs.

CPB’s Financial Reporting Guidelines for Preparing the Annual Financial Report (AFR),
Grantee Fiscal Year 2010 Edition, Part III, Section 6, Schedule B – Indirect
Administrative Support instructions for using the Basic Method requires stations to
determine the cost groups benefiting the station. The cost groups must meet the
following criteria:

   1. services are an essential part of station operations;
   2. services are continuous and ongoing in support of the station; and
   3. station uses the services or is required to use the services provided.

Further, CPB’s guidelines for completing Line 2c.3. on the Schedule B Worksheet –
Basic Method require that cost groups that do not benefit the operations of the public
broadcasting station be deducted from the costs of the licensee’s institutional support.
Similar guidance applies to completing the physical plant support worksheet.

CCC did not deduct the cost groups that did not benefit the station in calculating the
Institutional and Physical Plant support claimed on schedule B lines 2c.4 and 3d.4 on
the FY 2010 and FY 2011 AFRs, “Cost Benefiting Station operations.” The cost groups
for the six CCC campuses and the District Office (DO) were used to calculate Schedule
B expenses. However, based on our review and discussions with CCC’s accounting
officials we found that only selected DO cost groups actually benefited station
operations. We discussed this finding with CCC accounting officials and they
acknowledged that in preparing the AFR, Schedule B Worksheet they did not adjust
their calculation of indirect support by deducting those cost centers that did not benefit
the station.

As a result, in response to the draft report CCC’s management recalculated the
institutional and physical plant support claimed on schedule B lines 2c.4 and 3d.4 on the
FY 2010 and FY 2011 AFRs to exclude cost centers that did not benefit the station.
Additionally, CCC identified $519,991 in occupancy value for its space usage in the
Kennedy King building not previously claimed on its AFRs. Based on our review of
CCC’s response to the draft report we accepted the recalculated cost pools and
occupancy values. This resulted in a recalculated CSG overpayment of 273,692
($146,092 in FY 2012 and $127,600 for FY 2013) as shown on Exhibit H.


                                            4
     Recommendations

We recommend that CPB management require CCC to take the following actions:

   1) repay $146,092 in CSG FY 2012 over-payments because of over-reported FY
      2010 NFFS and adjust FY 2013 CSG payments by $127,600 for over-reported
      FY 2011 NFFS;
   2) submit revised AFRs, Schedules B for FY2010 and FY 2011, eliminating
      questionable indirect revenues of $2,382,835; and
   3) institute controls to ensure future NFFS reporting fully complies with CPB’s
      financial reporting guidelines.
    CCC Management Response

In response to this recommendation, CCC officials concur with the finding that
Institutional support of $65,611,914 in FY2010 and $65,531,438 in FY 2011 and
Physical Plant support of $28,977,237 in FY2010 and $21,805,364 in FY 2011 were
incorrectly reported. However they disagreed with the method used in the draft report to
re-calculate Institutional and Physical Plant support citing the non-standard cost groups
used in the calculation. Alternatively, CCC recalculated the cost pools using its
“standard” cost groups and included occupancy value for its usage of the Kennedy King
building not previously reported on its AFRs. Based on these adjustments, CCC
estimated CSG overpayments of $239,838 ($119,799 for FY 2010 NFFS and $120,039
for FY 2011 NFFS).

     OIG Review and Comment

CCC’s response only addressed recommendation 1, it did not address
recommendations 2 and 3. Based on CCC’s response, we accepted CCC’s
recalculated “standard” cost groups and the occupancy values. The cost group
adjustments presented in the draft report were based on feedback we received from
CCC’s accounting office of those costs that benefited station operations. CCC’s
response to the draft report reflected a reconsideration of the information previously
presented to us during our fieldwork. As a result, the estimated NFFS overstatements
were recalculated as $1,217,917 for FY 2010 and $1,110,918 for FY 2011 per Exhibit H
with estimated CSG overpayments of $273,692 ($146,092 for FY 2012; $127,600 for FY
2013) using the available FY 2012 IRR. This change is reflected in the body of the
report, in recommendation 1, and in Exhibit H.

Based on WYCC’s response to the draft report, we consider recommendation 1
resolved but open pending CPB’s management decision and collection of
overpayments. Recommendations 2 and 3 are unresolved pending CPB’s final
management decision on the recommendations.




                                           5
Compliance with Communications Act Requirements

Our examination found that WYCC did not fully comply with two requirements of the
Communications Act for open meetings and documenting Donor List and Political
Activities requirements. Specifically, the station did not make quarterly on-air
announcements of the station’s open meeting policy or establish a written policy
addressing Donor List and Political Activities requirements. The station’s lack of
compliance with these requirements deprived the public of the required information
envisioned by the Act. This information provides transparency, as well as, informs the
public about how the station operates.

     Quarterly Notification of Open Meetings Policy

WYCC did not fully comply with all the open meetings requirements of the
Communications Act. CCC’s Board of Directors (BOD) meets twelve times a year on
the first Thursday of each month. A review of the BOD meeting minutes showed that
they discussed WYCC business (including public broadcasting activities) and made
decisions concerning the Network. However, WYCC did not make quarterly on-air
announcements on at least three consecutive days explaining the station’s open
meeting policy and how the public could obtain information on the dates, times, and
location of upcoming BOD meetings.

Title 47 U.S.C. Section 396(k)(4) of the Act, prohibits the distribution of federally
appropriated funds to the licensee of a public broadcasting station unless the governing
body of the organization, any committees of such governing body, or any advisory body
of any such organization holds open meetings preceded by reasonable notice to the
public.

CPB’s Certification Requirements for Station Grant Recipients for open meetings
(Section III. C - minimum compliance requirements for “reasonable notice” to the public)
requires stations to “give reasonable notice to the public of the fact, time and place of an
open meeting at least one week (7 days) in advance of the scheduled date . . . .” CPB’s
explanation of the Act requires stations to provide three types of notice. The third
requirement states:

       On-air announcements on at least three consecutive days once during each
       calendar quarter that explain the station's open meeting policy and provides
       information about how the public can obtain information regarding specific
       dates, times, and locations.

Station officials stated that because WYCC’s licensee is a state university, they followed
the state’s open meeting policy and were not aware of the CPB requirement.

Subsequent to our fieldwork, Station officials drafted Open Meetings Guidelines dated
May 23, 2012. A review of the Guidelines shows that the state and CPB guidelines
were combined to include CPB’s requirements to make on-air announcements for at
least three consecutive days once each calendar quarter. Station officials stated that
they will adhere to this requirement going forward.
                                             6
      Donor List & Political Activities

WYCC did not have a donor list and political activities policy at the time of our field
work. Station officials stated that in practice the station did not rent, sell, lease, or
exchange donor information. However, this was not communicated in the sample
membership renewal correspondence provided us during the audit fieldwork. However,
the online form that can be completed by donors states that WYCC does not exchange
donor information.

CPB’s Certification Requirements for Station Grant Recipients for donor lists and
political activities (Section IV. A.1.) requires each recipient of a CPB station grant, after
reviewing the above information, shall develop documentation indicating the manner of
compliance with this requirement.

Subsequent to our fieldwork, station officials drafted and approved a policy on the donor
list & political activities requirements dated May 9, 2012. Our preliminary review of the
policy found that it addressed CPB donor list and political activities requirements.

     Recommendations

We recommend that CPB require WYCC to fully comply with all requirements of the
Communications Act as follows:

   4) make on-air announcements for at least three consecutive days once each
      calendar quarter that explain the station’s open meeting policy and CPB
      documentation of the announcements made over the next four quarters; and
   5) provide CPB with a copy of its donor list and political activities policy for CPB’s
      review and approval.

     CCC Management Response

CCC’s response to the draft report did not address recommendations 4 and 5.


     OIG Review and Comment

Based on CCC’s response, we consider recommendations 4 and 5 unresolved, pending
CPB’s final management decision to address these recommendations.




                                              7
                                                                                     EXHIBIT A

                                  CPB Payments to WYCC-TV
                                  July 1, 2009 – June 30, 2011

  Date                 Grants:             2010 AFR       2011 AFR           Total


 2/4/2010    Community Service Grant:       $397,694.00                    $397,694.00
2/24/2010    Community Service Grant:       $397,694.00                    $397,694.00
12/20/2010   Community Service Grant:                      $549,832.00     $549,832.00
3/22/2011    Community Service Grant:                      $549,832.00     $549,832.00
                      Sub-Total             $795,388.00   $1,099,664.00   $1,895,052.00


 2/4/2010    Interconnection                  $7,932.00                      $7,932.00
2/24/2010    Interconnection                  $7,932.00                      $7,932.00
12/20/2010   Interconnection                                $10,598.00      $10,598.00
3/22/2011    Interconnection                                $10,597.00      $10,597.00
                      Sub-Total              $15,864.00     $21,195.00      $37,059.00


             Other:
1/13/2010    Fiscal Stabilization Grant                     $68,680.27      $68,680.27


                  Total Payments            $811,252.00   $1,189,539.27   $2,000,791.27




                                               8
                                                                                                 EXHIBIT B

              Annual Financial Reports Years Ending June 30, 2010-2011

Line                                   Description                                 FY 20010       FY 20011

        Schedule A, Source of Income:
2       Amounts Provided by Public Broadcasting Entities                            $1,028,153     $1,112,472
2.A.    CPB-CSG                                                                      $963,167      $1,073,731
2.D.    TV-Interconnection                                                             $16,068        $18,978
2.E.    CPB – All other funds                                                          $48,918        $19,763
4       State boards and departments of education                                    $158,520       $169,527
6       Other State supported colleges and universities                             $4,209,800     $2,149,125
7       Private colleges and universities                                              $27,345         $6,928
8       Foundation and nonprofit associations                                        $271,152       $268,299
9       Business and Industry                                                          $28,132        $30,235
10      Membership and Subscription                                                  $552,818       $518,882
18      Capital contributions                                                          $94,761        $12,294
20      Other Direct Revenue                                                           $83,672        $64,395
21      Total Revenue                                                               $6,454,353     $4,332,158

        Adjustments to Revenue
23      Public broadcasting revenue                                                 $1,028,153     $1,112,472
        Capital funds exclusions                                                       $94,761        $12,294
27      Total Direct Nonfederal Financial Support                                   $5,331,439     $3,207,392

        Schedule B Worksheet
1       Determine Station net direct expenses
        Total station operating expenses and capital outlays (forwards from line   $10,485,194     $7,154,513
1a      10 of Schedule E)
1b.1.        Capital Outlays                                                           $94,761        $12,294
1b.2.        Depreciation                                                             $618,835       $489,097
1b.5.         Indirect administrative support (see Guidelines for instructions)     $3,412,005     $2,333,259
1b.8.        Total deductions                                                       $4,125,601     $2,834,650
1c.     Station net direct expenses                                                 $6,359,593     $4,319,863
2a.1.        Station net direct Expenses (forwards from line 1)                     $6,359,593     $4,319,863
             Licensee net direct activities                                        $128,494,30    $128,131,23
2a.2.                                                                                        5              9
        Percentage of allocation (2a.1 divided by 2a.2) (forward to line 2c.5       4.949319%      3.371436%
2a.3.   below)
2c.2.       Costs per licensee financial statements                                $65,611,914    $65,531,438
2c.4.       Costs benefiting station operations                                    $65,611,914    $65,531,438
2c.5.       Percentage of allocation (from line 2a.3 or 2b.3)                       4.949319%      3.371436%
            Total institutional costs benefiting station operations                 $3,247,342     $2,209,350
2c.6.
3        Physical plant support rate calculation
3a.          Net square footage occupied by station                                     23,434         23,434
3b.         Licensee's net assignable square footage                                 4,123,907      4,123,907
            Percentage of allocation (3a divided by 3b) (forward to line 3d.5       0.568248%      0.568248%
3c.     below)
3d.2.       3d.2. Costs per licensee financial statements                          $28,977,237    $21,805,364
3d.4.       Costs benefiting station operations                                    $28,977,237    $21,805,364
3d.5.       Percentage of allocation (from line 3c.)                                0.568248%      0.568248%


                                                        9
                                                                                      EXHIBIT B (continued)

              Annual Financial Reports Years Ending June 30, 2010-2011

Line                                 Description                                        FY 20010      FY 20011
            Total physical plant support costs benefiting station operations              $164,662      $123,908
3d.6.
4       Total costs benefiting station operations                                        $3,412,004   $2,333,258
        Schedule B Totals
1       Total support activity benefiting station                                        $3,412,004   $2,333,258
        Total Indirect Administrative Support (Forwards to Line 2 of the
5       Summary of Nonfederal Financial Support)                                         $3,412,004   $2,333,258

        Schedule E Expenses and Investments in Capital
        Program Services
1       Programming and production                                                       $2,567,114   $2,038,886
2       Broadcasting and engineering                                                     $2,741,407   $2,539,416
3       Program information and promotion                                                 $465,116     $429,193
        Support Services
4       Management and general                                                           $3,243,349    $853,863
5        Fund raising and membership development                                          $584,966     $681,839
6       Underwriting and grant solicitation                                               $169,646     $109,925
        Depreciation and amortization (if not allocated to functional categories in
7       lines 1 through 6)                                                                $618,835     $489,097
        Total Expenses (sum of lines 1 to 7) must agree with audited financial
8       statements                                                                      $10,390,433   $7,142,219
        Investments in Capital Assets
        Cost of capital assets purchased or donated
9       Total capital assets purchased or donated                                           $94,761      $12,294
9a.     Land and buildings                                                                       $0           $0
9b.     Equipment                                                                           $94,761      $12,294
9c.     All other                                                                                $0           $0
10      Total expenses and investment in capital assets (Sum of lines 8 and 9)          $10,485,194   $7,154,513
11      Total expenses (direct only)                                                     $6,978,428   $4,808,960
12      Total expenses (indirect and in-kind)                                            $3,412,005   $2,333,259
13      Investment in capital assets (direct only)                                          $94,761      $12,294
        Investment in capital assets (indirect and in-
14      kind)                                                                                   $0           $0




                                                         10
                                                                          EXHIBIT C

          Summary of Non-Federal Financial Support 2010-2011
       Certified by Head of Grantee and Independent Accountant’s Report

Line                         Description              FY 2010      FY 2011


         Summary of Non-Federal Financial Support:
1        Direct Revenue (Schedule A)                 $5,331,439   $3,207,392
2        Indirect Administrative (Schedule B)        $3,412,004   $2,333,258
3        In-Kind Contributions (Schedule C)              0            0
3a        Services and Other Assets (Schedule C)         0            0
3b        Property and Equipment (Schedule D)            0            0
4        Total Non-Federal Financial Support         $8,743,443   $5,540,650




                                                11
                                                                            EXHIBIT D

      CCC Proposed FY 2010 Institutional Support Calculation

                                                               FY 2010 District
                              Cost Groups
                                                               Office Expenses
Qualified Costs Groups:
IN Education fund                                                   36,090,441
Audit fund                                                             595,000
Liability and Protection Fund                                        8,039,948
Amount that may be claimed on Line 2c.2 of AFR                      44,725,389

Cost groups that do not benefit the operations:
Education-Institutional Support
Academic Management (0000112)                                          179,087
Auxiliary Services (0005038)                                            85,319
Business Process Design Group (0000150)                                699,018
Business/Academic Programs (0000133)                                   275,890
Communications (0015505)                                             1,561,214
Contracts/Grant Writing (0000111)                                      279,713
Legislative and Government (0015507)                                   387,886
Student Financials (0010103)                                           281,598
Vice Chancellor - Acad Affairs (0000113)                               721,678
Vice Chancellor - Development (0015508)                                258,625
Workforce Development (0000118)                                         (6,420)
WYCC - Transmitter/Broadcast (8075018)                                 200,818
                                 Sub-Total                           4,924,426

Liability Protection-Institutional Support
General Counsel (0022501) - Legal Services (535100)                    658,288
General Counsel (0022501) - Litigation (599100)                        (43,850)
WYCC - General Administration (8075007)                              1,475,000
                                 Sub-Total                           2,089,438
                              Total Deductions                       7,013,864

Cost Groups that do not benefit station Operations line 2c.3         7,013,864
FY 2011 Amount that may be claimed on AFR Line 2c.4                 37,711,525




                                            12
                                                                     EXHIBIT E

          CCC Proposed FY 2011 Institutional Support Calculation

                                                           FY 2011 District
                                 Cost Groups               Office Expenses
Qualified Cost Groups:
IN Education fund                                               34,690,706
Audit fund                                                         566,083
Liability and Protection Fund                                      462,162
Amount that may be claimed on Line 2c.2 of AFR                  35,718,951

Cost groups that do not benefit the operations:
Education- Institutional Support
Academic Management (0000112)                                         92,069
Business Process Design Group (0000150)                               17,323
Business/Academic Programs (0000133)                                 317,071
Client Srvcs & Student Engmt (0018000)                               293,317
Communications (0015505)                                           1,772,379
Community Relations (0015509)                                         91,417
Contracts/Grant Writing (0000111)                                     10,278
Default Dept/Special Suspense (0PRSUSP)                                  251
Foundations, Grants & Contracts (0019001)                            346,737
Harold Washington (20)                                                   221
Legislative and Government (0015507)                                 532,461
Operational Excellence Center (0017001)                              663,644
Purchasing (0005029)                                                   5,525
Reinvention Processes (0017004)                                    2,094,116
Research & Evaluation (0017002)                                      690,795
Restaurant Management (0016003)                                        4,450
Security Services (0015003)                                            1,606
Strategic Planning (0017003)                                          58,290
Strategy & Instutnl Intel (0017000)                                  275,733
Student Financials (0010103)                                          15,054
Vice Chancellor - Academic Affairs (0000113)                         693,011
Vice Chancellor - Development (0015508)                               13,682
Vice Chancellor - Development Dept (0019000)                         172,355
Workforce Development (0000118)                                       43,332
WYCC - Transmitter/Broadcast (8075018)                               240,000
                                 Sub- Total                        8,445,117

Liability Protection-Institutional Support
General Counsel (0022501) - Legal Services (535100)                 521,121




                                                  13
                                                                  EXHIBIT E (continued)

          CCC Proposed FY 2011 Institutional Support Calculation

                                                                      FY 2011 District
                                 Cost Groups                          Office Expenses
General Counsel (0022501) - Litigation Settlement (599100)                     149,400
WYCC - General Administration (8075007)                                    (1,375,000)

                                  Sub- Total                                (704,479)

                               Total Deductions                             7,740,638

FY 2011 Cost Groups that do not benefit station Operations line
2c.3                                                                        7,740,638

FY 2011 Amount that may be claimed on AFR Line 2c.4                        27,978,313




                                                14
                                                                           EXHIBIT F

               CCC Proposed FY 2010 Physical Plant Support

                                                               FY 2010 District
                                Cost Groups                    Office Expenses

Qualified Cost Groups:
Operation and Maintenance Fund                                 2,797,604
IN Support Operation and Maintenance Fund                      483,536
Amount that may be claimed on AFR Line 3d.2                    3,281,140

Cost groups that do not benefit the operations:
Educ Operation and Maintenance Fund
Security Services (0015003)                                    405,266
WYCC - Transmitter/Broadcast (8075018)                         8,580
WYCC - General Administration (8075007)                        766
Plant Management (0005031) - Facilities Rental (561100)        67,135
WYCC - Plant Management (8005031)                              28,212
WYCC - Engineering (8075006)                                   100
                                 Sub- Total                    510,059

IN Support Operation and Maintenance Fund
WYCC - Transmitter/Broadcast (8075018)                         88,895
WYCC - General Administration (8075007)                        66,425
                                Sub- Total                     155,320

                             Total Deductions                  665,379

Cost Groups that do not benefit station Operations line 3d.3   665,379
FY 2011 Amount that may be claimed on AFR Line 3d.4            2,615,761




                                              15
                                                                           EXHIBIT G

                 CCC Proposed FY 2011 Physical Plant Support

                                                          FY 2011 District Office
                              Description                 Expenses
Qualified Cost Groups:
Operation and Maintenance Fund                                          2,762,587
IN Support Operation and Maintenance Fund                                 474,338
Amount that may be claimed on AFR Line 3d.4                             3,236,924


Cost groups that do not benefit the operations:
Operation and Maintenance Fund
Plant Management (0005031) - Capital Lease (566100)                         5,179
Plant Management (0005031) - Equipment Rental (562100)                      1,480
Plant Management (0005031) - Facilities Rental (561100)                    75,850
                               Sub- Total                                  82,509

IN Support Operation and Maintenance Fund
WYCC - Transmitter/Broadcast (8075018)                                      7,000
                              Sub- Total                                    7,000
                            Total Deductions                               89,509


Cost Groups that do not benefit station Operations line
3d.3                                                                       89,509

Amount that may be claimed on AFR Line 3d.4                             3,147,415




                                                16
                                                                                                                  EXHIBIT H

                        Adjusted Calculation of NFFS Schedule B Work Sheets
                                                                                      CCC                              CCC
                                                                   FY 2010          Adjusted         FY 2011         Adjusted
          Schedule B Work Sheet FYs 2010-2011
                                                                  From AFR         Calculation      From AFR        Calculation
                                                                                    FY 2010                          FY 2011
1. Determine Station net direct expenses

1a. Total station operating expenses and capital outlays          $10,485,194       $10,485,194      $7,154,513       $7,154,513
(forwards from line 10 of Schedule E)
1b.1.Capital Outlays                                                    $94,761         $94,761         $12,294          $12,294

1b.2. Depreciation                                                     $618,835        $618,835        $489,097        $489,097

1b.5. Indirect administrative support (see Guidelines for             $3,412,005     $3,412,005      $2,333,259       $2,333,259
instructions)
1b.8. Total deductions                                                $4,125,601     $4,125,601      $2,834,650       $2,834,650

1c. Station net direct expenses                                       $6,359,593     $6,359,593      $4,319,863       $4,319,863

2a.1. Station net direct Expenses (forwards from line 1)              $6,359,593     $6,359,593      $4,319,863       $4,319,863

2a.2. Licensee net direct activities                             $128,494,305      $128,494,305    $128,131,239     $128,131,239

2a.3. Percentage of allocation (2a.1 divided by 2a.2) (forward            4.95%          4.949%           3.37%          3.371%
to line 2c.5 below)
2c.2. Costs per licensee financial statements                     $65,611,914       $44,725,389     $65,531,438      $35,718,951

2c.3. LESS: Cost groups that do not benefit the                              $0      $7,013,864              $0       $7,740,638
operations of the public broadcast station
2c.4. Costs benefiting station operations                         $65,611,914       $37,711,525     $65,531,438      $27,978,313
2c.5. Percentage of allocation (from line 2a.3 or 2b.3)                   4.95%           4.95%           3.37%           3.37%
2c.6. Total institutional costs benefiting station                    $3,247,343      1,866,720      $2,209,350          942,869
operations
3. Physical plant support rate calculation

3a. Net square footage occupied by station                               23,434          23,434          23,434           23,434

3b. Licensee's net assignable square footage                           4,123,907      4,123,907       4,123,907        4,123,907
3c. Percentage of allocation (3a divided by 3b) (forward to               0.57%           0.57%           0.57%           0.57%
line 3d.5 below)
3d.2. Costs per licensee financial statements                     $28,977,237        $3,281,140     $21,805,364       $3,236,924

3d.3. LESS: Cost groups that do not benefit the                              $0        $665,379              $0          $89,509
operations of the public broadcast station

3d.4. Costs benefiting station operations                         $28,977,237        $2,615,761     $21,805,364       $3,147,415

3d.5. Percentage of allocation (from line 3c.)                            0.57%           0.57%           0.57%           0.57%
3d.6. Total physical plant support costs benefiting                    $164,663         $14,910        $123,909          $17,940
station operations
4. Total costs benefiting station operations (forwards to        $3,412,006.00     $1,881,630.33   $2,333,259.00     $960,809.41
line1 on tab3)
          CCC Adjustments per Draft Response:

Total costs benefiting station operations Claimed on AFR                             $3,412,006                       $2,333,259

Less: Total costs benefiting station operations CCC                                  $1,881,630                        $960,809
Adjustment
Less: Occupancy Value not previously reported                                           $258,459                        $261,532
                 Overstated NFFS Revenue                                              $1,271,917                       $1,110,918

FY 2012 TV IRR:                                                                        0.114860                        0.114860
                      CSG Overpayment                                                  $146,092                        $127,600

          Used FY 2012 rate pending finalization of FY 2013 IRR based on FY 2011 NFFS.

                                                                 17
                                                                              EXHIBIT I

                               Scope and Methodology

We performed an attestation examination to determine WYCC’S adherence to the
requirements of the CPB Financial Reporting Guidelines, provisions of the Act, and CPB
grant provisions and certification requirements. The scope of the examination included
reviews and tests of the information reported by the station on its AFRs and audited
financial statements for the years ending June 30, 2010 and 2011. We examined
WYCC’S compliance with the Act and Certification Requirements for CPB station grant
recipients. We examined expenses paid from the Community Service Grants to
determine if they were allowable in accordance with the terms and conditions of the
grants.

The scope of the audit included tests of the AFRs, Schedules A and B, and the data
reported on them for the fiscal years ending June 30, 2010 and 2011. We tested the
allowability of the revenues reported as NFFS totaling $14,284,093 ($8,743,443 in FY
2010 and $5,540,650 in FY 2011) by performing financial reconciliations and
comparisons to underlying accounting records (general ledger) and the audited financial
statements. We reviewed the allowability of expenses that were charged to the CPB
grants. We tested 50% of the CPB transactions ($992,368 of $ 2,000,791) for FYs 2010
and 2011. We also analyzed reports of expenses charged to the Fiscal Stabilization
and Interconnection grants to determine that expenditures were allowable.

We reviewed supporting documentation for underwriting agreements, grant agreements,
vendor invoices, and other documentation supporting revenues and expenditures
tested. We also reviewed records and documents supporting the station’s compliance
with the Act requirements to provide advance notice of public meetings of the Board of
Directors, financial and EEO information made available to the public, and documents
supporting compliance with donor lists and political activities prohibitions. Our
procedures included interviewing station officials, an accounting consultant, and the
station’s independent public accountant.

We gained an understanding of internal controls over the preparation of AFRs, cash
receipts, and cash disbursements. We also gained an understanding of WYCC’s
policies and procedures for compliance with Certification of Eligibility requirements,
Communications Act, and CPB grant agreement terms for allowable costs. Our
understanding of the internal control environment and specific control techniques were
used in assessing risks to plan the nature and extent of our testing to conclude on our
objectives. We also tested the effectiveness of controls over payment authorizations

Our fieldwork at the station was performed at WYCC’S, during the week of May 30 -
April 3, 2012. Our examination was performed in accordance with the Government
Auditing Standards, July 2007 Revision, for attestation examinations.




                                           18
administrative function that should be included as a cost group, has $291,871 (81%) of its
$359,337 FY 2010 costs identified as “Possible Deduction” by the auditor without a well-defined
rationale for why salaries in the budget office that happen to be charged to line items described
as “Administrator salaries” and “Professional/Technical salaries” should be excluded.

According to the auditor’s analysis, the Office of Information Technology had allowable
expenses of $12,327,173 out of a total of $17,934,705 (69%) in FY 2010. Then, in FY 2011,
$10,084,215 out of $13,172,515 (77%) was considered as a possible deduction. This shift from
allowable to possibly unallowable costs reflects a change in the line item for certain
expenditures, with $8,351,309 of “Computing Services” (allowable) in FY 2010 becoming
$4,454,945 of “Consultants” (possible deduction) in FY 2011. In addition, $1,225,804 of
allowable “Equipment maintenance” in FY 2010 became $1,083,307 of possibly deductible
“Equipment maintenance” in FY 2011. Nothing changed in the operation of the Office of
Information Technology except the characterization, for accounting purposes, of certain objects
of expense. The same indirect administrative support was provided in both years.

The attached six exhibits illustrate CCC’s approach to calculating the CSG overpayment for FY
2010 and FY 2011. They also provide a template for addressing the overstatement of NFFS
revenue by identifying those cost groups that should be deducted when preparing Schedule B. To
facilitate comparison, all except Exhibit 1 are based on the exhibits included with the inspector
general’s draft report.

Exhibit 1 summarizes the data used in the review by the auditor by standard cost groups
(identified at CCC as departments). The data was coded to reflect the auditor’s categorization of
certain line items as “possible deductions” and validated using the Excel worksheets provided by
the auditor, shown below.

           Line 2c 4 FY2010.xlsx                 AFR Line 3d 4 FY 2010.xlsx
           AFR Line2c 2 FY 2011.xlsx             AFR Line 3d 4 FY 2011.xlsx

Note that the Grand Total for FY 2010 of the Institutional Support table in Exhibit 1
($44,725,389) equals the “Amount that may be claimed on Line 2c.2 of AFR” shown on Exhibit
D of the auditor’s report. Similarly, the Grand Total for FY 2011 matches the respective line on
Exhibit E. The O&M Grand Totals for FY 2010 and FY 2011 likewise match Exhibits F and G.
Further validation that the data used for CCC’s analysis is the same as that used by the auditor is
available if required.

Exhibits 2 through 5 provide a side-by-side comparison of the auditor’s Exhibits D through G,
calculated using objects of expense as cost groups, with CCC’s calculations using standard cost
groups.

Finally, Exhibit 6 replicates the auditor’s Exhibit H, substituting CCC’s calculated values for
lines 2c.3 et seq in the third and fifth columns. In addition, an inconsistency in presentation on
line 2c.2, column three was corrected to allow easier comparison of year-to-year differences in
line 2c.3. A line was added at the bottom of the table to allow an adjustment by including the
“occupancy value not previously reported” (see footnote above). The table below summarizes
the difference between the auditor’s calculation and CCC’s.
                                                2
                                     FY 2010         FY 2011        Total
             CPB IG calculation      $190,325        $213,185       $403,510
             CCC calculation          119,799         120,039        239,838
             Difference              $ 70,526        $ 93,146       $163,672

The non-standard identification of objects of expense as cost groups not only overstates the
amount of the CSG overpayment in this review, it also establishes a method for determining
indirect administrative support that cannot be replicated from year to year. As shown in Exhibit
1, the auditor did not seem to use the same criteria from one year to the next, resulting in
substantial differences in allowable costs within standard cost groups. The approach proposed by
CCC is consistent with normal indirect cost allocation methodology and can be replicated readily
from year to year using a template that identifies those cost groups (departments) that always
should be deducted.

CCC urges the inspector general to reconsider the cost groups used for this analysis and to
reevaluate the CSG overpayment in line with standard indirect cost allocation methodology.

Sincerely,




J. Randall Dempsey, CPA
Interim Vice Chancellor of Finance/CFO

cc: Ron Schofield, Executive Director of Media Services, WYCC-TV
    Bruce Gename, Associate Controller, General Accounting, CCC
    Robert Winteringham, Deputy General Counsel, CPB
    Mark Erstling, Senior Vice President, System Development & Media Strategy, CPB




                                                3
Exhibit 1.
                                                      CPB IG Findings Compared
                                                    to CCC Proposed Adjustments
                                                        FY 2010 and FY 2011
                                                        Institutional Support
                                                                 2010                                                2011
                                                                    CPB IG Possible    2010 Total                       CPB IG Possible   2011 Total
                                                  CPB IG Allowed                                      CPB IG Allowed
             Row Labels                    Dept                       Deduction                                           Deduction
  Education Fund
    CCC Proposed Cost Groups to Include
      Administrative Services           0005033           14,353                             14,353            11,181                           11,181
      Assoc Vice Chancellor, Finance    0010104          222,186            337,761         559,948            83,509           497,530        581,040
      Board Of Trustees                 0015502          198,674             68,690         267,364           209,702           248,033        457,735
      Business Enterprise               0016000                                                                42,166           191,017        233,184
      Business Services - A/P           0010102           53,423            156,865         210,288            43,210           155,260        198,470
      Chancellor                        0015501          276,611            769,507       1,046,118           179,061           700,061        879,122
      Chief Operating Office            0015503                                                                12,142            60,900         73,042
      Controller                        0010105          171,129          1,257,110       1,428,240           575,861         1,275,096      1,850,958
      Financial Control Compliance      0010029            1,807            128,985         130,792            26,198           131,160        157,358
      Financial Planning and Budget     0010051           67,465            291,871         359,337            54,109           239,849        293,958
      General Counsel Office            0022501          178,020          1,407,054       1,585,074           190,913           798,587        989,501
      HR-Bus Mgmt                       0025009           18,835             89,167         108,001            17,091            89,267        106,358
      HR-Comp + Class                   0025003           44,599            197,592         242,191            38,004           198,496        236,500
      HR-EEO                            0025004          120,312            232,619         352,931           146,332           235,310        381,642
      District Offices                  00               144,448            (66,080)         78,369       (26,112,866)                0    (26,112,866)
      HR-Employee Benefits              0025006          475,395            443,522         918,917        24,154,310           412,827     24,567,137
      HR-Recruitment                    0025001           64,392            140,394         204,785            67,410           354,042        421,453
      HR-Staff Development              0025008              345             10,125          10,470               750                              750
      HR-Staffing                       0025005           94,187            350,505         444,692           105,808           213,981        319,789
      Inspector General                 0015001          187,445             44,528         231,973           238,945           332,100        571,045
      Internal Auditing                 0015002          583,093            334,086         917,178           497,053           320,319        817,373
      Mail Room & Telephone             0005028          191,619             87,701         279,320           136,139            91,515        227,653
      Office of Information Tech        0023001       12,327,173          5,607,532      17,934,705         3,088,301        10,084,215     13,172,515
      Payroll                           0025007           54,801            258,954         313,754         2,108,910           254,593      2,363,503
      Risk Management                   0025010              200                                200
      Treasurer                         0010026          279,564            149,974         429,539           180,369           214,546        394,915
      Vice Chancellor - Finance         0010002          109,096          2,421,207       2,530,303            26,427         2,438,988      2,465,415
      Vice Chancellor - HR              0025002          175,235            391,942         567,176           141,157           445,707        586,863
 CCC Proposed Cost Groups to Include Total            16,054,405         15,111,611      31,166,016         6,262,193        19,983,400     26,245,592

    CCC Proposed Cost Groups to Exclude
      Academic Management              0000112            32,982            146,104         179,087            16,694            75,375         92,069
      Auxiliary Services               0005038            85,319                             85,319
      Business Process Design Group    0000150           172,041            526,977         699,018                              17,323         17,323
      Business/Academic Programs       0000133            46,280            229,610         275,890          101,155            215,915        317,071
      Client Srvcs & Student Engmt     0018000                                                                48,990            244,328        293,317
      Communications                   0015505           938,902            622,312       1,561,214          750,465          1,021,914      1,772,379
      Community Relations              0015509                                                                19,901             71,515         91,417
      Contracts/Grant Writing          0000111             54,234           225,479         279,713              330              9,948         10,278
      Default Dept/Special Suspense    0PRSUSP                                                                                      251            251
      Foundations,Grants & Contracts   0019001                                                                 62,796           283,941        346,737
      Harold Washington                20                                                                                           221            221
      Legislative and Government       0015507             45,751           342,135         387,886           71,420            461,041        532,461
      Operational Excellence Center    0017001                                                               117,400            546,244        663,644
      Purchasing                       0005029                                                                 5,525                             5,525
      Reinvention Processes            0017004                                                               298,307          1,795,808      2,094,116
      Research & Evaluation            0017002                                                               139,972            550,824        690,795
      Restaurant Management            0016003                                                                 4,450                             4,450
      Security Services                0015003                                                                   258              1,348          1,606
      Strategic Planning               0017003                                                                 9,367             48,923         58,290
      Strategy & Instutnl Intel        0017000                                                                60,947            214,785        275,733
Exhibit 1.
                                                      CPB IG Findings Compared
                                                    to CCC Proposed Adjustments
                                                        FY 2010 and FY 2011
                                                        Institutional Support
                                                                  2010                                                   2011
                                                                     CPB IG Possible    2010 Total                          CPB IG Possible   2011 Total
                                                   CPB IG Allowed                                        CPB IG Allowed
              Row Labels                    Dept                       Deduction                                              Deduction
      Student Financials                0010103             66,451           215,147         281,598                7,683             7,371         15,054
      Vice Chancellor - Acad Affairs    0000113            300,224           421,455         721,678             301,147            391,864        693,011
      Vice Chancellor - Development     0015508             48,219           210,406         258,625                1,882            11,800         13,682
      Vice Chancellor-Developmt Dept 0019000                                                                      39,609            132,746        172,355
      Workforce and Economic Develop 0023002                (1,120)           (5,300)          (6,420)
      Workforce Development             0000118                                                                                     43,332          43,332
      WYCC - Transmitter/Broadcast      8075018           200,818                            200,818             240,000                           240,000
 CCC Proposed Cost Groups to Exclude Total              1,990,101         2,934,324        4,924,425           2,298,297         6,146,816       8,445,114

Education Fund Total                                18,044,506        18,045,935        36,090,441          8,560,490       26,130,216        34,690,706

  Liability Fund
    CCC Proposed Cost Groups to Include
      Business Services - A/P           0010102                  0                                 0
      Controller                        0010105                              52,483           52,483
      General Counsel Office            0022501         1,726,149            55,389        1,781,538            (135,745)           35,963         (99,781)
      District Offices                  00                      0                                  0               2,897                             2,897
      HR-Employee Benefits              0025006                 0                                  0                   0                                 0
      Risk Management                   0025010         3,893,489           223,000        4,116,489           1,040,525           223,000       1,263,525
 CCC Proposed Cost Groups to Include Total              5,619,638           330,872        5,950,510             907,677           258,963       1,166,640

    CCC Proposed Cost Groups to Exclude
      General Counsel Office            0022501           (43,850)          658,288          614,438                               670,521          670,521
      WYCC - General Administration     8075007         1,475,000                          1,475,000          (1,375,000)                        (1,375,000)
 CCC Proposed Cost Groups to Exclude Total              1,431,150           658,288        2,089,438          (1,375,000)          670,521         (704,479)

Liability Fund Total                                 7,050,788            989,160        8,039,948           (467,323)          929,485         462,162

  Audit Fund
    CCC Proposed Cost Groups to Include
      Controller                        0010105           595,000                            595,000            566,083                            566,083
 CCC Proposed Cost Groups to Include Total                595,000                            595,000            566,083                            566,083

Audit Fund Total                                        595,000                           595,000             566,083                           566,083

Grand Total                                         25,690,294        19,035,095        44,725,389          8,659,250       27,059,701        35,718,951
Exhibit 1.
                                                  CPB IG Findings Compared
                                                to CCC Proposed Adjustments
                                                     FY 2010 and FY 2011
                                                            O&M
                                                                      2010                                               2011

                                                                          CPB IG Possible   2010 Total                      CPB IG Possible   2011 Total
                                                         CPB IG Allowed                                    CPB IG Allowed
                                                                            Deduction                                         Deduction
                      Row Labels                  Dept
  O&M Fund
    O&M Programs
     CCC Proposed Cost Groups to Include
       Business Services - A/P                0010102                0                                0
       Plant Management (Fund 05501)          0005031        1,247,800         1,039,745      2,287,545        1,474,452         1,008,586      2,483,038
       Facilities Maintenance                 1005025                                                            197,040                          197,040
  CCC Proposed Cost Groups to Include Total                  1,247,800         1,039,745      2,287,545        1,671,492         1,008,586      2,680,078

      CCC Proposed Cost Groups to Exclude
       Security Services                      0015003            7,093          398,173         405,266
       WYCC - Transmitter/Broadcast           8075018            8,580                            8,580
       WYCC - General Administration          8075007              766                              766
       Plant Management (Fund 05501)          0005031           67,135                           67,135           77,330             5,179         82,508
       WYCC - Plant Management                8005031           28,212                           28,212
       WYCC - Engineering                     8075006              100                              100
  CCC Proposed Cost Groups to Exclude Total                    111,886          398,173         510,059           77,330             5,179         82,508

 O&M Programs Total                                       1,359,686        1,437,918        2,797,604       1,748,822        1,013,765        2,762,587

    Institutional Support Programs
      CCC Proposed Cost Groups to Include
       Administrative Services                0005033           49,326          311,408         360,734           70,041          364,789         434,830
       Controller                             0010105                           (65,114)        (65,114)
       Mail Room & Telephone                  0005028            5,684           26,911          32,596            5,604           26,904          32,508
  CCC Proposed Cost Groups to Include Total                     55,010          273,205         328,216           75,645          391,693         467,338

      CCC Proposed Cost Groups to Exclude
       WYCC - Transmitter/Broadcast           8075018           88,895                           88,895            7,000                            7,000
       WYCC - General Administration          8075007           66,425                           66,425
  CCC Proposed Cost Groups to Exclude Total                    155,320                          155,320            7,000                            7,000

 Institutional Support Programs Total                       210,330           273,205        483,536            82,645          391,693        474,338

O&M Fund Total                                            1,570,016        1,711,123        3,281,140       1,831,467        1,405,457        3,236,924

Grand Total                                               1,570,016        1,711,123        3,281,140       1,831,467        1,405,457        3,236,924
Exhibit 2.
                                        Proposed FY 2010 Institutional Support Calculation
                                               CPB IG Compared to CCC Adjusted
                              CPB IG Proposed                                         CCC Proposed
                                                               FY 2010 District                                                                  FY 2010 District
                              Cost Groups                                                                     Cost Groups
                                                               Office Expenses                                                                   Office Expenses
Qualified Costs Groups:                                                           Qualified Costs Groups:
IN Education fund                                                   36,090,441    IN Education fund                                                   36,090,441
Audit fund                                                             595,000    Audit fund                                                             595,000
Liability and Protection Fund                                        8,039,948    Liability and Protection Fund                                        8,039,948
Amount that may be claimed on Line 2c.2 of AFR                      44,725,389    Amount that may be claimed on Line 2c.2 of AFR                      44,725,389

Cost groups that do not benefit the operations:                                   Cost groups that do not benefit the operations:
Education-Institutional Support                                                   Education-Institutional Support
Administrators-base salary                                           3,594,271    Academic Management (0000112)                                           179,087
Benefits 25% Admin-base salary                                         898,568    Auxiliary Services (0005038)                                             85,319
Bad debt expense                                                       (66,080)   Business Process Design Group (0000150)                                 699,018
Consultant/Contract Staffing                                         2,429,567    Business/Academic Programs (0000133)                                    275,890
Clerical/tech                                                        1,088,728    Communications (0015505)                                              1,561,214
Benefits 25%                                                           217,746    Contracts/Grant Writing (0000111)                                       279,713
faculty Enhancement                                                    739,422    Legislative and Government (0015507)                                    387,886
Instructional equip over $25000                                        178,155    Student Financials (0010103)                                            281,598
Litigation settlement                                                  675,000    Vice Chancellor - Acad Affairs (0000113)                                721,678
Prof/tech staff-base salary                                          3,964,147    Vice Chancellor - Development (0015508)                                 258,625
Benefits 25% Prof/tech staff                                           991,037    Workforce Development (0000118)                                          (6,420)
Prof/tech staff-part-time                                            1,065,709    WYCC - Transmitter/Broadcast (8075018)                                  200,818
                               Sub-Total                            15,776,268                                   Sub-Total                              4,924,426

Liability Protection-Institutional Support                                        Liability Protection-Institutional Support
Administrators-base salary                                             137,029    General Counsel (0022501) - Legal Services (535100)                     658,288
Consultant/Contract Staffing                                           115,944    General Counsel (0022501) - Litigation (599100)                         (43,850)
Legal services                                                         658,288    WYCC - General Administration (8075007)                               1,475,000
Other services                                                          52,483
Prof/tech staff-base salary                                             25,416
                                 Sub-Total                             989,160                                 Sub-Total                                2,089,438
                             Total Deductions                       16,765,428                              Total Deductions                            7,013,864

Cost Groups that do not benefit station Operations line 2c.3        16,765,428    Cost Groups that do not benefit station Operations line 2c.3         7,013,864
FY 2011 Amount that may be claimed on AFR Line 2c.4                 27,959,961    FY 2011 Amount that may be claimed on AFR Line 2c.4                 37,711,525
Exhibit 3.
                                            Proposed FY 2011 Institutional Support Calculation
                                                   CPB IG Compared to CCC Adjusted
                                 CPB IG Proposed                                            CCC Proposed
                                                        FY 2011 District                                                     FY 2011 District
                                                        Office Expenses                                                      Office Expenses
                                 Cost Groups                                                              Cost Groups


Qualified Cost Groups:                                                     Qualified Cost Groups:
IN Education fund                                            34,690,706    IN Education fund                                      34,690,706
Audit fund                                                      566,083    Audit fund                                                566,083
Liability and Protection Fund                                   462,162    Liability and Protection Fund                             462,162
Amount that may be claimed on Line 2c.2 of AFR               35,718,951    Amount that may be claimed on Line 2c.2 of AFR         35,718,951

Cost groups that do not benefit the operations:                            Cost groups that do not benefit the operations:
Education- Institutional Support                                           Education- Institutional Support
Administrators-base salary                                    4,467,430    Academic Management (0000112)                              92,069
Benefits 25% Admin-base salary                                1,116,858    Business Process Design Group (0000150)                    17,323
Bad debt expense                                                 61,986    Business/Academic Programs (0000133)                      317,071
Clerical/tech                                                 1,178,059    Client Srvcs & Student Engmt (0018000)                    293,317
Benefits 25% Clerical/tech                                      294,515    Communications (0015505)                                1,772,379
Consultant/Contract Staffing                                  8,320,450    Community Relations (0015509)                              91,417
Equipment maintenance                                         1,092,439    Contracts/Grant Writing (0000111)                          10,278
Special Assignment Pay                                           52,126    Default Dept/Special Suspense (0PRSUSP)                       251
Faculty Enhancement                                             814,753    Foundations,Grants & Contracts (0019001)                  346,737
Other services                                                   97,460    Harold Washington (20)                                        221
Prof/tech staff-base salary                                   4,958,544    Legislative and Government (0015507)                      532,461
Benefits 25% Prof/tech                                        1,239,636    Operational Excellence Center (0017001)                   663,644
Prof/tech staff-part-time                                     1,441,295    Purchasing (0005029)                                        5,525
                                 Sub- Total                  25,135,550    Reinvention Processes (0017004)                         2,094,116
                                                                           Research & Evaluation (0017002)                           690,795
Liability Protection-Institutional Support                                 Restaurant Management (0016003)                             4,450
Benefits 25% Admin-base salary                                    36,141   Security Services (0015003)                                 1,606
Consultants                                                                Strategic Planning (0017003)                               58,290
Litigation settlement                                           149,400    Strategy & Instutnl Intel (0017000)                       275,733
                                   Sub- Total                   185,541    Student Financials (0010103)                               15,054
                                                                           Vice Chancellor - Academic Affairs (0000113)              693,011
                              Total Deductions               25,321,091    Vice Chancellor - Development (0015508)                    13,682
                                                                           Vice Chancellor - Development Dept (0019000)              172,355
                                          Proposed FY 2011 Institutional Support Calculation
                                                 CPB IG Compared to CCC Adjusted
                               CPB IG Proposed                                            CCC Proposed
FY 2011 Cost Groups that do not benefit station Operations line                Workforce Development (0000118)                                       43,332
                                                                  25,321,091
2c.3
FY 2011 Amount that may be claimed on AFR Line 2c.4               10,397,860   WYCC - Transmitter/Broadcast (8075018)                               240,000
                                                                                                              Sub- Total                          8,445,117

                                                                               Liability Protection-Institutional Support
                                                                               General Counsel (0022501) - Legal Services (535100)                   521,121
                                                                               General Counsel (0022501) - Litigation Settlement (599100)            149,400
                                                                               WYCC - General Administration (8075007)                           (1,375,000)
                                                                                                                  Sub- Total                       (704,479)

                                                                                                            Total Deductions                      7,740,638

                                                                               FY 2011 Cost Groups that do not benefit station Operations line
                                                                                                                                                  7,740,638
                                                                               2c.3
                                                                               FY 2011 Amount that may be claimed on AFR Line 2c.4               27,978,313
Exhibit 4.
                                                               Proposed FY 2010 O&M Calculation
                                                               CPB IG Compared to CCC Adjusted
                              CPB IG Proposed                                                                         CCC Proposed
                                                                   FY 2010 District                                                                  FY 2010 District
                                                                   Office Expenses                                                                   Office Expenses
                              Cost Groups                                                                           Cost Groups


Qualified Cost Groups:                                                                Qualified Cost Groups:
Operation and Maintenance Fund                                           2,797,604    Operation and Maintenance Fund                                       2,797,604
IN Support Operation and Maintenance Fund                                  483,536    IN Support Operation and Maintenance Fund                              483,536
Amount that may be claimed on AFR Line 3d.2                              3,281,140    Amount that may be claimed on AFR Line 3d.2                          3,281,140

Cost groups that do not benefit the operations:                                       Cost groups that do not benefit the operations:
Educ Operation and Maintenance Fund                                                   Educ Operation and Maintenance Fund
Administrators-base salary                                                 100,319    Security Services (0015003)                                            405,266
Benefits 25% Admin-base salary                                              25,080    WYCC - Transmitter/Broadcast (8075018)                                   8,580
Cust/maint-base                                                          1,022,380    WYCC - General Administration (8075007)                                    766
Benefits 25% Cust/maint-base                                               255,595    Plant Management (0005031) - Facilities Rental (561100)                 67,135
Prof/tech staff-base salary                                                108,693    WYCC - Plant Management (8005031)                                       28,212
Benefits 25% Prof/tech                                                      27,173    WYCC - Engineering (8075006)                                               100
Supervisory                                                                175,707
Benefits 25% Supervisory                                                    43,927
                              Sub- Total                                 1,758,874                                   Sub- Total                              510,059

IN Support Operation and Maintenance Fund                                             IN Support Operation and Maintenance Fund
Clerical/tech-base                                                          14,267    WYCC - Transmitter/Broadcast (8075018)                                   88,895
Benefits 25% Clerical/tech-base                                              3,567    WYCC - General Administration (8075007)                                  66,425
Prof/tech staff                                                            179,908
Benefits 25% Prof/tech staff                                                44,977
                               Sub- Total                                  242,720                                   Sub- Total                              155,320

                           Total Deductions                              2,001,593                               Total Deductions                            665,379

Cost Groups that do not benefit station Operations line 3d.3             2,001,593    Cost Groups that do not benefit station Operations line 3d.3           665,379
FY 2011 Amount that may be claimed on AFR Line 3d.4                      1,279,546    FY 2011 Amount that may be claimed on AFR Line 3d.4                  2,615,761
Exhibit 5.
                                                          Proposed FY 2011 O&M Calculation
                                                           CPB IG Compared to CCC Adjusted
                                  CPB IG Proposed                                                                     CCC Proposed
                                                          FY 2011 District Office                                                             FY 2011 District Office
                               Description                Expenses                                              Description                   Expenses

Qualified Cost Groups:                                                              Qualified Cost Groups:
Operation and Maintenance Fund                                          2,762,587   Operation and Maintenance Fund                                          2,762,587
IN Support Operation and Maintenance Fund                                 474,338   IN Support Operation and Maintenance Fund                                 474,338
Amount that may be claimed on AFR Line 3d.4                             3,236,924   Amount that may be claimed on AFR Line 3d.4                             3,236,924

Cost groups that do not benefit the operations:                                     Cost groups that do not benefit the operations:
Operation and Maintenance Fund                                                      Operation and Maintenance Fund
Administrators-base salary                                                 82,505   Plant Management (0005031) - Capital Lease (566100)                         5,179
Benefits 25% Admin-base salary                                             20,626   Plant Management (0005031) - Equipment Rental (562100)                      1,480
Capital Lease Payments                                                      5,179   Plant Management (0005031) - Facilities Rental (561100)                    75,850
Clerical/tech                                                              10,577
Benefits 25% Clerical/tech                                                  2,644
Prof/tech staff-base salary                                               104,675
Benefits 25% Prof/tech                                                     26,169
Cust/maint-base                                                           669,029
Benefits 25% Cust/maint-base                                              167,257
Consultant/Contract Staffing                                              109,801
                             Sub- Total                                 1,198,461                                Sub- Total                                    82,509

IN Support Operation and Maintenance Fund
Prof/tech staff                                                           182,068   WYCC - Transmitter/Broadcast (8075018)                                      7,000
Benefits 25% Prof/tech                                                     45,517
Cust/maint-base                                                            26,904
Benefits 25% Cust/maint-base                                                6,726
Clerical/tech-base                                                         31,337
Benefits 25% Clerical/tech                                                  7,834
                                Sub- Total                                300,385                                Sub- Total                                     7,000
                             Total Deductions                           1,498,846                             Total Deductions                                 89,509


Cost Groups that do not benefit station Operations line                             Cost Groups that do not benefit station Operations line
                                                                        1,498,846                                                                              89,509
3d.3                                                                                3d.3
Amount that may be claimed on AFR Line 3d.4                             1,738,078   Amount that may be claimed on AFR Line 3d.4                             3,147,415
Exhibit 6.
                                                       CCC Adjusted Calculation of NFFS
                                                     Schedule B Work Sheet FYs 2010-2011
                                                                                              CCC Adjusted                     CCC Adjusted
                                                                               FY 2010                          FY 2011
                  Schedule B Work Sheet FYs 2010-2011                                          Calculation                      Calculation
                                                                              From AFR                         From AFR
                                                                                                FY 2010                          FY 2011
1. Determine Station net direct expenses
1a. Total station operating expenses and capital outlays                       $10,485,194      $10,485,194      $7,154,513       $7,154,513
(forwards from line 10 of Schedule E)
1b.1.Capitol Outlays                                                               $94,761          $94,761         $12,294          $12,294
1b.2. Depreciation                                                               $618,835         $618,835        $489,097         $489,097
1b.5. Indirect administrative support (see Guidelines for                       $3,412,005       $3,412,005      $2,333,259       $2,333,259
instructions)
1b.8. Total deductions                                                          $4,125,601       $4,125,601      $2,834,650       $2,834,650
1c. Station net direct expenses                                                 $6,359,593       $6,359,593      $4,319,863       $4,319,863
2a.1. Station net direct Expenses (forwards from line 1)                        $6,359,593       $6,359,593      $4,319,863       $4,319,863
2a.2. Licensee net direct activities                                          $128,494,305     $128,494,305    $128,131,239     $128,131,239
2a.3. Percentage of allocation (2a.1 divided by 2a.2) (forward to line 2c.5          4.95%           4.949%           3.37%           3.371%
below)
2c.2. Costs per licensee financial statements                                  $65,611,914      $44,725,389     $65,531,438      $35,718,951
2c.3. LESS: Cost groups that do not benefit the                                         $0       $7,013,864              $0       $7,740,638
operations of the public broadcast station
2c.4. Costs benefiting station operations                                      $65,611,914      $37,711,525     $65,531,438      $27,978,313
2c.5. Percentage of allocation (from line 2a.3 or 2b.3)                              4.95%            4.95%           3.37%            3.37%
2c.6. Total institutional costs benefiting station                              $3,247,343        1,866,720      $2,209,350          942,869
operations
3. Physical plant support rate calculation
3a. Net square footage occupied by station                                          23,434           23,434          23,434           23,434
3b. Licensee's net assignable square footage                                     4,123,907        4,123,907       4,123,907        4,123,907
3c. Percentage of allocation (3a divided by 3b) (forward to line 3d.5                0.57%            0.57%           0.57%            0.57%
below)
3d.2. Costs per licensee financial statements                                  $28,977,237       $3,281,140     $21,805,364       $3,236,924
3d.3. LESS: Cost groups that do not benefit the                                         $0         $665,379              $0          $89,509
operations of the public broadcast station
3d.4. Costs benefiting station operations                                      $28,977,237       $2,615,761     $21,805,364       $3,147,415
3d.5. Percentage of allocation (from line 3c.)                                       0.57%            0.57%           0.57%            0.57%
3d.6. Total physical plant support costs benefiting                               $164,663          $14,910        $123,909          $17,940
station operations
4. Total costs benefiting station operations (forwards to line1 on tab3)      $3,412,006.00    $1,881,630.33   $2,333,259.00     $960,809.41

Total costs benefiting station operations Claimed on AFR                                         $3,412,006                       $2,333,259
Total costs benefiting station operations CCC Adjustment                                         $1,881,630                         $960,809
Occupancy value not previously reported                                                            $258,459                         $261,532
Overstated NFFS Revenue                                                                          $1,271,917                       $1,110,918
TV IRR Rate                                                                                       0.094188                         0.108054
CSG Overpayment                                                                                    $119,799                         $120,039
